W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-51

Central Payment Co., LLC

Custom Hair Designs by Sandy, LLC, on behalf of th

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Tyler W. Hudson

Date:

7/15/20

Digitally signed by Tyler W. Hudson
Date: 2021.07.28 13:01:44 -05'00'

(Type or print) Name Tyler W. Hudson
Mr.

Ms.

Firm

Wagstaff & Cartmell

Address

4740 Grand Ave, Suite 300

City & State

Kansas City, MO

Phone

816 516 5899

Mrs.

Miss

Zip 64112
Email

thudson@wcllp.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Ashley C. Parrish - Counsel of Record
Gabriel Krimm
Jonathan R. Chally
Brandon Keel

